Washington, D.C. 20530

September 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Dwayne Sheckles v. United States of America,
S.Ct. No. 20-5228
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on July 22, 2021. Although the
government waived its right to file a response, the Court has requested that a response be filed.
The government’s response is now due on September 22, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 22, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-5228
SHECKLES, DWAYNE
USA

KEVIN MICHAEL SCHAD
OFFICE OF THE FEDERAL PUBLIC DEFENDER
250 E. FIFTH STREET
STE. 350
CINCINNATI, OH 45202
513-929-4834
KEVIN_SCHAD@FD.ORG

